OFFICE OF INSPECTOR GENERAL�


Audit of the Inter-American
Foundation's Financial
Statements for Fiscal Years 2009
and 2008
AUDIT REPORT NO. 0-IAF-10-003-C
November 13, 2009




WASHINGTON, DC�
Office of Inspector General

November 13, 2009

MEMORANDUM

TO:	                 IAF President, Amb. Larry L. Palmer

FROM: 	              AIG/A, Joseph Farinella /s/

SUBJECT:	            Audit of the United States Inter-American Foundation’s Financial Statements for
                     Fiscal Years 2009 and 2008 (Audit Report No. 0-IAF-10-003-C)

With this memorandum, the Office of Inspector General (OIG) is transmitting the audit report
prepared by the certified public accounting firm of Brown & Co., CPAS, PLLC on the Audit of
Financial Statements as of September 30, 2009 and 2008 of the Inter-American Foundation,
(IAF). The OIG contracted with this Independent Auditor to audit the financial statements.

The Independent Auditor expressed an unqualified opinion on IAF’s FY 2009 audited financial
statements, and notes. The report states that the Financial Statements presented fairly in all
material respects IAF’s financial positions, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2009, and 2008, in
conformity with accounting principles Generally Accepted in the United States of America.

The report contained no material weaknesses or significant deficiencies in IAF’s internal control
over financial reporting and no instances of material noncompliance with selected provisions of
applicable laws and regulations involving IAF’s financial management system.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted Government Auditing Standards issued by
the Comptroller General of the United States; and the Office of Management and Budget
Bulletin (OMB) 07-04, Audit Requirements for the Federal Financial Statements.

In connection with our contract, we reviewed the Independent Auditor’s related audit
documentation. Our review, is different from an audit in accordance with the auditing standards
discussed above, was not intended to enable us to express, and we do not express an opinion
on IAF’s financial statements. Also, we did not express conclusions on the effectiveness of
IAF’s internal control or IAF’s compliance with other laws and regulations. The Independent
Auditor was responsible for the attached auditor’s report dated November 5, 2009 and the
conclusions expressed therein. Our review disclosed no instances where the Independent
Auditor did not comply, in all material respects, with the auditing standards discussed above.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
                                             -2-

The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and to the staff of Brown & Co., CPAS, PLLC, during the audit. If you have questions
concerning this report, please contact Rohit Chowbay at (202) 712-1317.
         INTER-AMERICAN FOUNDATION 





FINANCIAL STATEMENTS AND INDEPENDENT AUDITORS' REPORT 


      For the Fiscal Years Ended September 30, 2009 And 2008 

                                                       TABLE OF CONTENTS


AGENCY HEAD MESSAGE ...................................................................................................................... 3 



PERFORMANCE SECTION ....................................................................................................................... 4 



MANAGEMENT DISCUSSION AND ANALYSIS ................................................................................. 17 



FINANCIAL SECTION
   CFO LETTER......................................................................................................................................... 25 

   INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS .............................. 27 

   INDEPENDENT AUDITOR'S REPORT ON INTERNAL CONTROL ............................................... 28 

   INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE WITH LAWS AND
   REGULATIONS .................................................................................................................................... 29 

   BALANCE SHEET ................................................................................................................................ 30 

   STATEMENT OF NET COST ............................................................................................................... 31 

   STATEMENT OF CHANGES IN NET POSITION .............................................................................. 32 

   STATEMENT OF BUDGETARY RESOURCES ................................................................................. 33 

   NOTES TO THE FINANCIAL STATEMENTS ................................................................................... 34 

                 Inter-American Foundation
                                         An Independent Agency of the U.S. Government


                PERFORMANCE AND ACCOUNTABILITY REPORT (PAR)


Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the United
States government, provides grants to grassroots organizations in Latin America and the
Caribbean. Created in 1969 as an experimental program, the IAF responds to innovative,
participatory and sustainable self-help development projects proposed by grassroots groups and
organizations that support them. It also encourages partnerships among community
organizations, businesses and local governments directed at improving the quality of life for
poor people and strengthening democratic practices. To contribute to a better understanding of
the development process, the IAF shares its experiences and the lessons it has learned.

The IAF is governed by a nine-person board of directors appointed by the President of the
United States and confirmed by the U.S. Senate. Six members are drawn from the private sector
and three from the public sector. The board is assisted by an advisory council. A president,
appointed by the board, serves as the Inter-American Foundation’s chief executive officer,
managing a staff of 47 employees based in Arlington, Virginia. The IAF is organized into three
offices; Executive, which houses the Office of the President, General Counsel and
Congressional Affairs; Operations, which manages Evaluation, Financial Management,
Publications, Human Resources and Information Management; and the Program Office, which
manages the grant program. An organization chart can be found on page 13.

The IAF plays a crucial role in U.S. foreign policy by delivering U.S. government assistance
directly to the poor of Latin America and the Caribbean and the groups that support them. Year
after year, the IAF’s investment in the ideas and energy of ordinary people has yielded
extraordinary returns in the form of economic improvement for families and better living conditions
in communities throughout the hemisphere. Many of the grassroots leaders supported by the IAF
have gone on to play influential roles in democratic processes and have helped strengthen good
governance principles. No longer considered experimental, the IAF’s responsive approach is
increasingly the model for overhauling top-down funding structures.




                                                  3

                         ANNUAL PERFORMANCE REPORT (APR)

                Accomplishments of the Annual Performance Measures for FY 2009
                                 from the IAF’s Strategy Plan


In FY 2009 the Inter-American Foundation received an appropriation of $22.5 million for program
and program support activities, which was supplemented by $6.8 million from the Social Progress
Trust Fund for development grants, and by $116,000 in carry-over funds. The total budget was
$29.4 million. The IAF’s primary funding strategy is responsiveness to the grassroots and
nongovernmental organizations proposing the best ideas for improving the quality of life of the poor
in Latin America and the Caribbean.

Goal One: Fund effective development projects that improve the quality of life as evidenced by
measurable indicators.

       Performance Measure 1.1 (output): Grants funded in the fiscal year that target a better
       quality of life for beneficiaries as evidenced by measurable indicators.

The IAF responded to the best development proposals it received by awarding 72 grants to
grassroots and nongovernmental organizations in 18 countries. New grantees plan to address access
to clean water and sanitation; provide training and credit to farmers to improve agricultural
production; and further the development of enterprises offering ecotourism services or processing a
variety of crops. The IAF also amended awards to 46 organizations funded in prior years.

       Performance Measure (outcome) 1.2: Percentage of grantees who’s funding ended in FY
       2009 that met or exceeded outcome goals specified for each project.

Of the 15 grantees completing their grant period during the first half of fiscal 2009 and reporting by
July, 73 percent had met or exceeded their goals related to, inter alia, more productive fish farming;
training toward sustainable management of fisheries; improved and diversified fruit production;
better access to credit; and self-sufficiency for savings and loan cooperatives. Reporting will
continue through December.

       Performance Measure (output) 1.3: Accomplishments, reported by IAF grantees active in
       FY 2008, that improved the quality of life as evidenced by measurable indicators.

Results data gathered from reports submitted by IAF grantees during the 12-month period ending in
September 2008 reveal the following:
   • More than 8,700 beneficiaries improved their diet.
   • More than 12,800 beneficiaries received medical attention.
   • Close to 2,400 individuals benefited from access to clean water.
   • IAF grantees helped their beneficiaries improve 322 homes.


                                                  4

   •	 Registration in courses, workshops and seminars in agriculture counted more than 21,900
      individuals; in civic participation, approximately 16,700; in management, close to 14,000;
      and in topics related to manufacturing, more than 9,200.
   •	 IAF grantees created 350 full-time and 456 part-time permanent jobs and 1,280 full-time
      and 725 part-time seasonal jobs.
   •	 Organizations contributing support in cash or in kind to IAF grantees totaled 1,660.
   •	 Of the 598 organizations working in partnership with IAF grantees, 395 became partners
      during FY-08.
   •	 Grantees mobilized $4.3 million and brokered another $1.1 million for project activities, or a
      total of $5.4 million ($4.2 million in cash and $1.2 million in kind).
   •	 Businesses located near IAF projects contributed more than $500,000, mostly in cash, to the
      IAF grantees undertaking them; local governments contributed $478,000.
   •	 International nonprofit organizations contributed close to $650,000 to IAF grantees.
   •	 IAF grantees extended more than 4,800 loans, which averaged $596 each. Loans for 

      business development represented 48 percent of the total and averaged $530 each.

   •	 In 17 of the 18 countries where the IAF funds projects, grantees disseminated information
      on approaches, practices and/or techniques. Haiti was the exception.

Goal Two: Stimulate broader participation in the development process and broader engagement in
democratic practices.

       Performance Measure (output) 2.1: Grants awarded to groups and organizations of the
       marginalized and disenfranchised, including African descendants, indigenous peoples,
       persons with disabilities, women and young people.

The IAF’s FY 2009 program includes grants or supplements to 64 grantees whose programs engage
and benefit groups and organizations of the marginalized and disenfranchised as described in the
measure:
   •	 The IAF awarded 13 new grants and five supplemental grants to organizations serving
       African descendants in Colombia, the Dominican Republic, Ecuador, Haiti, Honduras,
       Jamaica, Mexico, Panama and Peru.
   •	 Awards to 21 new grantees and seven to grantees from prior years continue the IAF’s long
       history of support for indigenous Latin Americans in Argentina, Bolivia, Colombia,
       Ecuador, El Salvador, Guatemala, Honduras, Mexico, Panama and Peru. Projects funded
       address forestry, conservation, craft enterprises, nutrition, water and sanitation, and access to
       credit.
   •	 Supplemental grants will benefit Mexicans and Peruvians with disabilities.
   •	 The IAF awarded 14 grants and two supplements to organizations serving young people
       with programs in enterprise development and leadership directed at preventing delinquency
       in Brazil, Colombia, the Dominican Republic, El Salvador, Haiti, Honduras, Nicaragua and
       Panama.
   •	 The IAF funded many organizations led by or serving women, including those of African
       and indigenous descent and young women in Argentina, Bolivia, Brazil, the Dominican
       Republic, Ecuador, El Salvador, Guatemala, Haiti and Panama. Projects focus on generating
                                                  5

       income from crafts, sewing and baking as well as from nontraditional fields such as
       agriculture and enterprise development.

       Performance Measure (outcome) 2.2: Percentage of these grantees whose funding ends in
       FY 2009 that met or exceeded outcome goals specified for each project.

As reported in Performance Measure 1.2, of the 15 grantees that completed their grant period during
the first half of fiscal 2009 and reported by July, 76 percent had met or exceeded their goals.
Figures have not yet been disaggregated to reflect the success rate of the grantees serving specific
marginalized communities.

       Performance Measure (output) 2.3: Events supported or organized to stimulate broader
       participation in the development process or engagement in democratic practices.

The IAF sponsored participation in numerous events designed to stimulate inclusion and civic
engagement. A partial listing follows:
   •	 The IAF continued to work with the Department of State and the Brazilian government on
      the U.S.-Brazil Joint Action Plan to promote international cooperation toward eliminating
      race-based discrimination, an initiative in which African descendants representing former
      IAF grantees are involved.
   •	 Among the 20 individuals participating in a series of meetings with government officials in
      Uruguay were the Uruguayan vice minister for Afro Descendants and Indigenous
      Communities and mayors from six Latin American cities with many citizens of African
      descent: Tambo de Mora, Peru; Esmeraldas, Ecuador; Talamanca, Costa Rica; Bluefields,
      Nicaragua; Coroico, Bolivia; and Tumaco, Colombia. The Uruguayan municipalities
      represented entered into agreements to provide the foreign mayors technical assistance
      related to water and sanitation, tourism development, health care, information technology
      and antidiscrimination policies.
   •	 African descendants from former IAF grantee Asociación Afroparaguaya Kamba Cua gave
      presentations at workshops at the annual conferences of the National Council of La Raza
      (NLCR) and the National Urban League on Afro-Latinos both held in July in Chicago. They
      performed traditional drumming at NCLR’s youth conference and gave the Center for Black
      Music Research of Columbia College a CD of Afro-Paraguayan music, the Center’s first
      acquisition from Paraguay.
   •	 Brazilian and Bolivian women of African descent lectured at the Fourth Annual Women of
      Power series held in universities in New York, Maine, Louisiana, and Puerto Rico.
   •	 Thirteen women participated in the General Assembly of the Red de Mujeres 

      Afrolatinoamericanas, Afrocaribeñas y de la Diáspora held in Managua. 

   •	 Mundo Afro’s Primer Foro Regional de Organismos Municipales de Equidad Racial e
      Igualdad de Oportunidades brought representatives from municipal governments in five
      Latin American countries to Quito to discuss race relations.
   •	 Amb. Larry Palmer delivered the keynote address at the fourth meeting of the Grupo
      Barlovento, held in La Paz in May, where nine scholars of African descent developed
      curricula, books and other teaching materials on African descendants in the Americas.
                                                 6
   •	 African descendants representing civil society attended events co-sponsored by Global
      Rights Partners for Justice to advance inclusion on the agenda of the Organization of
      American States. They were joined at the General Assembly of the OAS and the Summit of
      the Americas by representatives from the region’s two largest networks of the disabled.
   •	 The IAF awarded a grant to the Latin American Studies Association for collaborative
      research on judicial reform and the rights of African descendants and indigenous peoples
      by grassroots organizers in Latin America and the Caribbean and scholars from U.S.
      universities.
   •	 Representatives of organizations serving people with disabilities, senior citizens,
      indigenous peoples, African descendants, youths, women, HIV/AIDS patients and other
      vulnerable groups addressed employment discrimination and access to health services and
      education in workshops held in collaboration with the Honduran Congress.
   •	 On a panel addressing accessible transportation at the XIV Inter-American Conference of
      Mayors held in Miami, representatives from Federación Nacional de Ecuatorianos con
      Discapacidad Física spoke of IAF-sponsored Taxi Solidario’s successful service for
      disabled Ecuadorians.
   •	 Officers of organizations representing deaf Latin Americans participated in the World Deaf
      Federation’s VI Encuentro Latinoamericano de Sordos e Interpretes, in Bogota. IAF Fellow
      Elizabeth Lockwood, who is studying the deaf movement in Uruguay, spoke of her research.
   •	 The Technical Secretariat for the Implementation of the Program of Action for the Decade
      of the Americas for the Rights and Dignity of Persons with Disabilities contributed toward
      the participation of representatives of organizations of persons with disabilities in
      workshops organized by the OAS.

       Performance Measure (outcome) 2.4: Percentage of participants in these events who say
       they will apply the knowledge gained to their work with development or civic engagement.

Approximately 97 percent of respondents said they will apply the knowledge gained from the
events to their work. They cited networking and communication as the most useful benefits of the
experience.

Goal Three: Draw more resources into grassroots development.

       Performance Measure (outcome) 3.1: Total verified dollar amount of in-kind and cash
       resources contributed or mobilized by grantees to further their efforts.

FY 2009 grantees committed nearly $22 million in counterpart resources for their projects. Grantees
mobilized $4.3 million and brokered another $1.1 million for project activities, or a total of $5.4
million ($4.2 million in cash and $1.2 million in kind). Organizations contributing support in cash
or in kind to IAF grantees totaled 1,660. Businesses located near IAF projects contributed more than
$500,000, mostly in cash, to the IAF grantees undertaking them; local governments contributed
$478,000; international organizations contributed close to $650,000.



                                                 7

       Performance Measure (output) 3.2: Number of companies and corporate foundations that
       commit to supporting grassroots development by becoming members of RedEAmerica.

RedEAmerica currently has 68 members in 12 countries, reflecting a net gain of 11 compared to last
year’s membership. New members who joined in 2009 include Curtiembres Fonseca and Fundación
Diario La Capital of Argentina; Siemens of Chile; Fundación Gases de Occidente and Fundación
Surtigas of Colombia; Siemens, S.A., of Ecuador; Fundación ADO, Fundación del Empresariado en
México, A.C. (Fundemex) and Fundación FEMSA of Mexico; Fundación Belcorp and Asociación
Sodexo por el Desarrollo Sostenible of Peru; and Supermercados Unicasa and Fundación Smurfit
Cartón of Venezuela.

       Performance Measure (outcome) 3.3: The dollar amount of resources invested in
       grassroots development through RedEAmerica.

Resources committed under a grant agreement entered into with RedEAmerica member Fundemex
in 2009 totaled $1,211,150 over the next three years. Additionally, pursuant to its co-funding
agreement entered into with the IAF in fiscal 2008, in fiscal 2009 the Codespa Foundation of Spain
increased by $500,000 the original $1 million it committed to RedEAmerica for grassroots
development in Guatemala, Colombia and Peru. As reported in fiscal 2008, the Multilateral
Investment Fund (MIF) of the Inter-American Development Bank awarded RedEAmerica $4.8
million for grassroots development in Argentina, Brazil, Guatemala, Colombia, Ecuador, Mexico
and Peru. The grant is the MIF’s most generous to date and represents the MIF’s most extensive
geographic coverage with a single award. RedEAmerica has committed $3.6 million in counterpart.
While the MIF funding has yet to be released, in 2009 the network developed funding criteria and
the members it selected to participate in the program began channeling their own resources to
community organizations undertaking self-help projects.

In some countries, members work together grouped into “national funds.” Groups that became
parties to cooperative agreements with the IAF committed to matching IAF funds two-to-one over
three years, as reported for the fiscal year in which the agreements were entered into. These
commitments were fulfilled during 2009. The Colombian National Fund contributed $254,554 from
members and mobilized resources ( and the IAF $127,277) toward 26 projects undertaken by
grassroots groups targeting income generation and education; Fundación Arcor and other
RedEAmerica members working as the Argentine National Fund contributed $231,811 (and the IAF
$60,234) toward 22 educational projects. The Brazilian National Fund contributed $ 127,537 from
members and mobilized resources (and the IAF $64,536) toward seven grassroots projects.

       Performance Measure (output) 3.4: Activities to encourage the investment of resources in
       transnational development.

The IAF sponsored the participation of 10 Salvadoran women leaders from U.S.-based hometown
associations and other organizations of immigrants in the Sixth International Convention of
Salvadorans in the World held in San Salvador. To encourage new proposals and identify partners,


                                                8

IAF staff participated in various events related to transnational issues held throughout Latin
America and the Caribbean and in Washington, D.C.




                                                  9

Goal Four: Document the IAF’s investments and results.

       Performance Measure (output) 4.1: In-depth evaluations or analyses documenting the
       impact of closed projects.

The Evaluation Office tested a method for assessing the impact of IAF’s funding by studying four
former grantees for their likelihood of survival, the likelihood their work would continue, changes
in living conditions and unexpected outcomes: Instituto para el Desarrollo Integral de la Comarca
Kuna Yala (IDIKY) and Asociación de Profesionales Agropecuarios Ngobe-Buglé (APANB) in
Panama, and Centro de Investigación y Promoción Social (CIPS) and Instituto Regional para la
Educación y el Desarrollo (REDES) in Peru. The findings will be discussed in a workshop with
IAF’s contracted data-verifiers early in fiscal 2010.

Goal Five: Further the understanding and effectiveness of grassroots development by disseminating
the IAF’s experiences and approach and by funding research.

       Performance Measure (output) 5.1: Publications produced that disseminate the IAF’s
       experiences and approach.

The annual report was published and distributed in English and Spanish and posted English,
Spanish and Portuguese versions on the IAF’s Web site. The IAF heralded its upcoming 40th
anniversary with a specially focused Grassroots Development for 2009 that was published and
distributed in English and Spanish and posted in English, Spanish and Portuguese on the IAF’s Web
site. Articles included features on trailblazing grantees from each decade of IAF’s work, thought
pieces on the grassroots approach and the Grassroots Development Framework pioneered at the IAF
and a profile of the career of Kevin Healy, the IAF’s longest serving representative and an
internationally recognized expert in several areas. Feedback from readers included a message from
George Cabot Lodge, a founding member of the IAF’s board of director and professors from several
U.S. universities. At the 16th Inter-American Conference of Mayors and Local Authorities, held
June 8-11 and co-sponsored by the IAF, Florida International University and Miami-Dade County,
IAF representative Wilbur Wright used his article “Decentralization Peruvian Style: Issues of Will
and Resources” from Grassroots Development 2008 in a workshop on the challenges and
achievements by IAF grantees adjusting to a decentralized context.

       Performance Measure (output) 5.2: Conferences, workshops, grantee exchanges, staff
       outreach and other activities sharing the IAF’s experience with and approach to grassroots
       development.

IAF staff and representatives of current and former grantees shared experiences and the IAF
approach in a variety of fora:
   •	 In partnership with the Technological Institute of Monterey, Mexico (TEC), the British bank
       HSBC and the IAF, RedEAmerica launched its online certificate program in funding
       grassroots development. “Private Sector Investment in Grassroots Development” consists of
       110 hours of Web-based instruction for staff of corporate foundations and businesses

                                                 10 

        interested in supporting social investment programs and civil society leaders. Sponsored by
        the IAF and facilitated by Kevin Healy, IAF representative for Bolivia, four Aymara farmers
        from former IAF grantee El Ceibo, a federation of 40 Bolivian cooperatives of cacao
        producers, reprised their role in “The Power of Chocolate,” a Valentine’s Day celebration
        that drew 20,000 visitors to the Smithsonian’s National Museum of the American Indian.
        The farmers shared the story of the IAF’s investment in a grassroots organization that
        evolved into Bolivia’s premiere exporter of cacao and chocolate products.
   •	   At the same event two Kuna representing former grantees explained their contribution to
        Cocoa Vial, a new cacao product which the MARS corporation developed with the help of
        the Kuna, an indigenous people with whom the IAF has maintained a long and productive
        relationship.
   •	   The IAF, USAID, Jatropha Foundation and Fondation CHIBAS-Haiti brought farmers and
        representatives from IAF grantees, donors, NGOs, businesses and the Haitian government to
        the first Jatropha Stakeholders Conference, held in Port-au-Prince in June, to analyze the
        potential of jatropha, a plant native to Haiti, as an alternative source of energy. Participants
        also discussed food security, land use and reforestation.
   •	   Some 400 participants from 12 countries attended the Inter-American Conference of Mayors
        and Local Authorities, supra, where panels of representatives of IAF grantees spoke on
        grassroots approaches to recycling (INSEA from Brazil), education (FACEPT from
        Argentina), municipal networking (REMURPE from Peru) and making transportation
        accessible to the disabled (Gestión Ecuador).
   •	   Experts from Peru and Bolivia joined Kevin Healy at the Latin American Studies
        Association Congress (LASA), held in Rio de Janeiro in June, for a discussion of the role of
        IAF funding in the revival of quinoa, a traditional Andean staple that has become a high-
        performing export commodity and development engine.
   •	   Judith Morrison, IAF regional director, organized a panel on race and development at the
        LASA Congress.
   •	   In August, Kevin Healy analyzed changes under the administration of Evo Morales for Al
        Jazeera news network as it marked Bolivia’s independence day and participated in a public
        forum on poverty in Latin America organized by the Council of the Americas and the
        Millennium Challenge Corporation.
   •	   More than 50 representatives from academia, government and nongovernmental
        organizations attended an event in Argentina where IAF staff shared the results of an
        evaluation of the IAF’s investment in Federación de Asociaciones de los Centros para la
        Producción Total (FACEPT), a federation of secondary schools that prepare students for
        careers in agriculture.
   •	   Representatives from 18 grantee organizations in Argentina, Uruguay and Paraguay,
        including Manos del Uruguay, an IAF grantee in the 1970s and 1980s, discussed the
        challenges to attaining financial self-sufficiency at a conference in Abra Pampa, Argentina.

        Performance Measure (outcome) 5.3: Percentage of participants surveyed who will apply
        knowledge gained in IAF-sponsored learning activities to their development work.

Participants in the above events were not surveyed.
                                                  11 

       Performance Measure (output) 5.4: Funded research, including fellowships supporting
       doctoral research on related topics, that adds to the body of knowledge related to grassroots
       development.

The IAF awarded 15 Grassroots Development Fellowships in 2009, which represented the third
cycle of its reinstituted program of support for research conducted by Ph.D. students who have
advanced to candidacy in U.S. universities.
The Fellows were selected on the strength of their academic record, their proposals and their
potential contribution to grassroots development. All U.S. citizens except as noted, they will
research the following topics:
    •	 Lissette Aliaga-Linares, Peruvian citizen, University of TexasAustin, underground 

       economies in Lima and Bogota; 

    •	 Jaime Amparo Alves, Brazilian citizen, University of TexasAustin, state-sanctioned
       violence in a Brazilian shantytown;
    •	 Laura Brewington, University of North Carolina-Chapel Hill, agricultural production,
       environmental policy and species invasion in the Galapagos;
    •	 Brian Joseph Burke, University of Arizona, barter systems in Medellin, Colombia;
    •	 Amanda Merritt Fulmer, University of Washington, the rights of indigenous Guatemalans;
    •	 Margarita Huayhua Curse, Peruvian citizen, University of Michigan, ethnic hierarchy in the
       southern Andes;
    •	 Jennifer Ann Devine, University of CaliforniaBerkeley, cultural tourism in post-war
       Guatemala;
    •	 Christopher Laurence Gibson, Brown University, municipal health councils in Brazil;
    •	 Jessica Alexis Jolicoeur Rich, University of CaliforniaBerkeley, responses to HIV/AIDS in
       Brazil;
    •	 Amy Michelle Lerner, University of CaliforniaSanta Barbara, household maize production
       in Central Mexico;
    •	 David Ricardo García, Guatemalan citizen, University of Florida, frontier land rights in
       Guatemala;
    •	 Gustavo Alberto García López, Indiana University, community forestry in Durango and
       Guerrero, Mexico;
    •	 Amy Rebecca Firestone, University of Illinois, revitalization of the Quechua language;
    •	 Diana Carolina Ojeda, Colombian citizen, Clark University, tourism-based development and
       state violence in Colombia;
    •	 Alan Shane Dillingham, University of Maryland, bilingual education in Mexico’s Mixteca
       Alta region.

Goal Six: Build upon and enhance current efficiency measures.

       Performance Measure (efficiency) 6.1: Percentage of IAF’s total obligation spent on
       overhead: personnel, staff travel, office rent, phone services, information technology
       services, supplies, equipment and other general operating expenses.

                                                12 

IAF estimates it will spend on overhead 26.8 percent of its FY 2009 operating budget.

The IAF has significantly streamlined operations and lowered overhead costs by outsourcing key
administrative and technical functions through its longstanding inter-agency franchise agreements
with the U.S. Treasury Department’s Bureau of the Public Debt (BPD) and the U.S. Interior
Department’s National Business Center (NBC). BPD provides procurement, accounting, budgeting,
travel and information technology services; NBC provides payroll and human resource services that
include timekeeping and personnel action processing and reporting as well as access to online
applications such as the Federal Personnel and Payroll System (FPPS) and Employee Express.
These arrangements produce a savings in full-time equivalencies (FTEs) and overhead costs as well
as a depth of expertise that the IAF could not otherwise afford.

Maintaining current FTE levels and support systems is essential to achieving program goals. IAF
will continue to introduce technology and E-Gov initiatives that improve efficiency and further
reduce the costs of enterprise network equipment and maintenance, human resource operations,
travel and telecommunications. In FY 2009, the IAF began participating with NBC in E-Gov
initiatives to improve personnel operations. The eOPF project currently underway will convert all
Official Personnel Folder (OPF) records to electronic format over the next six months, which will
save staff time in maintaining the folders and afford IAF employees access on-line. The IAF is also
planning to take advantage of NBC’s Workforce Transformation and Tracking System (WTTS) and
Entry on Duty Systems (EODS) currently in preparation by the Department of Interior for roll-out
in FY 2010. These applications will afford additional automation and eliminate data redundancy,
further streamlining operations and lowering costs. NBC’s Talent Management System (TMS),
which includes modules for learning management and performance management, is under
consideration for deployment by the IAF in FY 2011.

Under its agreement with IAF, BPD provides information technology support that includes security,
network administration and help desk services. The IAF currently maintains a data center with six
servers at IAF’s Arlington offices, which are maintained remotely through a VPN connection by IT
specialists at BPD’s facility in West Virginia. BPD also hosts the IAF alternate COOP data center in
West Virginia. Beginning in late FY 2010, IAF will relocate its data center to West Virginia, which
will allow BPD to lower costs by replacing IAF’s current hardware inventory of 12 servers with
four machines that will run between eight and 10 servers using virtualization technology. This move
will produce additional savings by enabling BPD to manage the IAF network more efficiently,
while facilitating data back-up and COOP system maintenance and testing through direct access to
all IAF servers. Consolidated purchases of computer equipment through BPD in FY 2009 allowed
the IAF to complete acquisitions efficiently and at lower cost through discounts for bulk purchases.

BPD has implemented the integration with the Central Contractor Registration, the system used by
suppliers as the sole repository for pertinent data, including remittance information. Integration
allows BPD and the IAF to maintain more efficiently current data related to suppliers. The IAF is
supporting the Financial Management Line of Business (FMLOB) Initiative by using BPD’s Oracle
Federal Financials System and related accounting and procurement services and BPD has been
reporting FMLOB metrics for IAF for the past two years. The Oracle platform provides real-time,

                                                13 

user-friendly financial reports. Since FY 2005, the IAF has been using GovTrip, the government-
wide E-Gov Travel system integrating online booking with the automated authorization and
vouchering process allowing travelers to attach receipts electronically.

A modest portion of overhead is invested in staff development, including through mentoring and
coaching, online training, workshops and seminars, and BPD and NBC’s on-site classes. IAF
subscribes to the Small Agency Council’s training program, which offers between 25 and 30
courses annually through the United States Department of Agriculture’s Graduate School for a
$2,000 annual agency fee. Approximately 25 percent of IAF employees take at least one class in
job-related skills or professional development at a significant savings to the agency. As the classes
cost between $700 and $1500 each, the IAF generally recovers the annual fee after two or three
enrollments.

Volunteer internships offer work experience to qualified undergraduate and graduate students from
across the country, who assist in IAF’s various offices. The IAF approved 10 internships in FY
2009. The IAF plans to continue working with Partners of the Americas to sponsor outstanding civil
servants from Latin America and the Caribbean who spend between two and four months working
in a federal agency. The Department of State covers all expenses of the program, while the host
agency provides an assignment and a mentor. In FY 2009, a specialist in social programs from the
Ministry of Planning and Cooperation in Santiago, Chile, worked for three months in the IAF’s
Evaluation Office.

The IAF continued to benefit from high-quality, low-cost domestic and international telephone
services provided through its agreement with the General Services Administration’s Federal
Technology Service (GSA/FTS).

The IAF continues to receive unqualified audits of its financial statements, internal controls over
financial reporting, and its compliance with laws and regulations.

       Performance Measure (efficiency) 6.2: Time spent in review and approval of grants
       proposals between receipt of proposals and the award of grants.

Based on information current through August, the average time spent in processing a grant in fiscal
2009 was 9.5 months, compared to 10 months in 2008.




                                                 14 

I am pleased to introduce the IAF’s FY 2009 financial statements, which reflect the IAF’s quest to
become increasingly innovative while adhering to its core principles.

The financial statements and performance results data are complete, reliable and in accordance
with the Office of Management and Budget (OMB) requirements and in conformity with
generally accepted accounting principles. The IAF has appropriate management controls in
place to ensure that all internal controls are operating in accordance with applicable policies and
procedures and are effective in meeting the requirements imposed by Federal Managers’ Financial
Integrity Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA).

Signed:

 /s/
Amb. Larry L. Palmer
President




                                                15 

                                             Inter-American Foundation


                                                                                  Board of Directors                           Advisory Council


                                                                                         Executive Office
                                                                                             President


                   Office of Operations                                                                                                             General Counsel &
                                                                                                                Office of Programs                 Congressional Affairs
                     VP for Operations


Information Management                                      Mexico & Central America                                                                South America & Caribbean
    & Human Capital                                                  Regional Director                                                                         Regional Director


                                                 Mexico                                        Guatemala                                   Peru                                            Bolivia
     Evaluations
                                         Foundation Representative                       Foundation Representative              Foundation Representative                          Foundation Representative


                                               Honduras                                        Nicaragua                                Argentina                                    Colombia & Chile
                                         Foundation Representative                       Foundation Representative              Foundation Representative                          Foundation Representative


                                         Panama & Costa Rica                                  El Salvador                        Paraguay & Uruguay                                Ecuador & Venezuela
                                         Foundation Representative                       Foundation Representative              Foundation Representative                          Foundation Representative


                                                                                                                                                                                   Dominican Republic,
                                     Program Staff Assistants (3)                                                                         Brazil                                          Haiti
                                                                                                                                Foundation Representative                          Foundation Representative


                                                                                                                                Program Staff Assistants (3)




                                                                                                   16 

MANAGEMENT DISCUSSION AND ANALYSIS

 The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
 operations, innovative and effective in its grassroots development programs. The IAF learns from
 its experience, and uses the lessons learned to improve its own grant making decisions and to
 advance the knowledge and success of development practitioners, donors, and policy makers.

 Mission and Organizational Requirements

 The Inter-American Foundation funds self-help and participatory development efforts in ways that
 support democracy and strengthen the bonds of friendship and understanding in the Western
 Hemisphere. The IAF supports initiatives proposed by the organized poor in Latin America and the
 Caribbean to improve their quality of life. IAF staff, representing the American government and
 people, maintain a supportive relationship with the grantees and their beneficiaries during the
 course of projects and, frequently, beyond. The IAF’s experiences are documented and shared with
 a broad and diverse audience.

 The IAF vision is a steady expansion of support for grassroots development and greater
 participation by the people of Latin America and the Caribbean in their countries’ economic
 development, social processes and political life. The IAF will continue to respond to the best ideas
 from the region, empowering people by strengthening a vast infrastructure of community groups
 and nongovernmental organizations that has become a highly effective and transparent channel for
 productive foreign assistance. Because a broader resource base is crucial to an expanded IAF
 program, the IAF will seek additional resources from various sources. The IAF will build on its
 well-documented record of drawing local government, businesses, corporate foundations and
 transnational communities into grassroots development. Through disseminating the lessons of its
 investment to other donors, to policymakers and to American taxpayers, the IAF can continue to
 lead the development community toward a realization that bottom-up development, in which the
 organized poor play a leading role, is more effective than traditional top-down approaches.




                                                  17 

The FY 2009 funding actions are divided among primary program areas as follows:

                                                           FY09 Grants by Program Area




                                                   Research/dissemination,
                                                           $50,000
                                              Legal assistance, $297,760
                                        Health/Housing, $296,000
                               Environment, $1,003,849
                  Cultural expression, $418,518
               Corporate Social Investment,                                                  Agriculture/food production,
                         $400,287                                                                     $5,599,822

       Education/training, $2,827,550




                                                                   Enterprise development,
                                                                         $6,062,689




Table 3.2
    FY09 GRANTS FUNDED BY PRIMARY PROGRAM AREA*
 Program Area                   IAF $     Funding Actions
 Agriculture/food production $ 5,599,822                32
 Enterprise development      $ 6,062,689                39
 Education/training          $ 2,827,550                30
 Corporate Social Investment $    400,287                 2
 Cultural expression         $    418,518                 4
 Environment                 $ 1,003,849                  7
 Health/Housing              $    296,000                 1
 Legal assistance            $    297,760                 2
 Research/dissemination      $     50,000                 1
Total                        $ 16,956,475              118




                                                                                    18 

The IAF’s Goals and Performance Measures for FY 2011

High-Priority Goal One: Fund effective development projects that improve the quality of life as
evidenced by measurable indicators.

Problem/need/challenge addressed: The IAF was created because of (1) the perception of poverty
as the most serious threat to U.S. interests in Latin America and the Caribbean and (2) the
realization that traditional foreign aid was not reaching the region’s poor. The IAF’s delivery of
U.S. government assistance directly to the organized poor has proved both cost-effective and
successful. However, desperate needs are still unmet and what macro-economic growth has
occurred in the region has worsened glaring inequities. In addition to human suffering, the
consequences have included uncontrolled migration, drug trafficking and instability that endangers
the movement toward democracy, among other strategic concerns.

       Performance Measure 1.1: Grants in the fiscal year that target a better quality of life for
       beneficiaries as evidenced by measurable indicators.

       Performance Measure 1.2: Percentage of grantees whose funding ended in FY 2011 that
       met or exceeded outcome goals specified for each project.

       Performance Measure (output) 1.3: Accomplishments, reported by IAF grantees active in
       FY 2010 that improved the quality of life as evidenced by measurable indicators.

High-Priority Goal Two: Stimulate broader participation in the development process and broader
engagement in democratic practices.

Problem/need/challenge addressed: Discrimination on the basis of race, ethnicity, disability and
gender means that African descendants, indigenous peoples, people with disabilities and women are
disproportionately represented among the poor in Latin America and the Caribbean and
disproportionately excluded from civic life and social services. Studies confirm that young people
as well are increasingly left behind, even during boom times.

       Performance Measure (output) 2.1: Grants awarded to groups and organizations of the
       marginalized and disenfranchised, including African descendants, indigenous peoples,
       people with disabilities, women and young people.

       Performance Measure (outcome) 2.2: Percentage of these grantees whose funding ends in
       FY 2011 that met or exceeded outcome goals specified for each project.

       Performance Measure (output) 2.3: Events supported or organized to stimulate broader
       participation in the development process or engagement in democratic practices.


                                                19 

High-Priority Goal Three: Draw more resources into grassroots development.

Problem/need/challenge addressed: A broader resource base is crucial to IAF’s vision for a steady
expansion of support for grassroots development.

       Performance Measure (outcome) 3.1: Total verified dollar amount of in-kind and cash
       resources contributed or mobilized by grantees to further their efforts.

       Performance Measure (outcome) 3.2: The dollar amount of resources invested in
       grassroots development through RedEAmérica and other corporate donors.

       Performance Measure (output) 3.3: Activities undertaken in partnership with other
       donors, including other federal agencies, interested in investing resources in grassroots
       development.

High-Priority Goal Four: Further the understanding and effectiveness of grassroots development
by disseminating the IAF’s experiences and approach and funding research.

Problem/need/challenge addressed: No longer considered experimental, the IAF’s responsive
funding is increasingly recommended as the best way to improve the quality of life in marginalized
communities. However, donors, policymakers and American taxpayers are not fully informed about
poverty and inequality in Latin America and the Caribbean or about the effectiveness of bottom-up
development, in which the organized poor take the initiative and do the work, as opposed to
traditional top-down approaches.

       Performance Measure (output) 4.1: Publications produced that disseminate the IAF’s
       experiences and approach.

       Performance Measure (output) 4.2: Conferences, workshops, grantee exchanges, staff
       outreach and other activities sharing the IAF’s experience with and approach to grassroots
       development.

       Performance Measure (output) 4.3: Funded research, including fellowships supporting
       doctoral research on related topics, that adds to the body of knowledge related to grassroots
       development.

High-Priority Goal Five: Build upon and enhance current efficiency measures.

Problem/need/challenge addressed: In the context of the current economic crisis, economists warn
of a rise in poverty in Latin America and the Caribbean, where poverty is already the norm, and of a
reduction in resources that are already scarce. Meanwhile, costs, especially overhead expenses, are
expected to escalate. The Social Progress Trust Fund is moving toward depletion and will be
insufficient to offset program shortfalls.


                                                 20 

The following cost-cutting measures will be in effect in FY 2011:

   •	 Continued outsourcing key accounting, budgeting, travel and information technology
      services to BPD;
   •	 Continued outsourcing of payroll and human resource services to NBC;
   •	 The introduction of new technology and E-Gov initiatives to reduce the costs of enterprise
      network equipment and maintenance, human resource operations, travel and
      telecommunications;
   •	 The relocation of IAF’s data center to West Virginia, where BPD will replace IAF’s current
      hardware inventory of 12 servers with four machines that will run 10-12 virtual servers,
      facilitating more efficient network management, data back-up and COOP system
      maintenance and testing;
   •	 Bulk purchases of computer equipment through BPD;
   •	 Conversion of all Official Personnel Folder (OPF) records to electronic format;
   •	 Adoption of the Workforce Transformation and Tracking System (WTTS) and Entry on
      Duty Systems (EODS) which NBC is preparing for roll-out;
   •	 Deployment of NBC’s Talent Management System (TMS), with modules for learning
      management and performance management;
   •	 Employee development through mentoring and coaching, online training, classes held by
      BPD and NBC, and the Small Agency Council training program of USDA Graduate School
      courses available at a reduced cost;
   •	 Internships for between 10 and 15 university student-volunteers;
   •	 Continued hosting and mentoring of outstanding civil servants from Latin America and the
      Caribbean, sponsored by Partners of the Americas and funded by the U.S. State Department
      for between two and four months;
   •	 A new telecommunications agreement through the GSA-FTS, resulting in quality telephone
      services at a modest savings.

Performance Measure 5.1: Response to the increased demand for development and travel grants
through effective planning and consolidation.

Performance Measure 5.2: Reduction in the portion of IAF’s budget spent on overhead.

Accountability

The goals and strategies in this Strategic Plan were developed by IAF managers through a robust
deliberative process. These goals and strategies continue to be discussed in semiannual meetings
with the IAF board of directors, weekly meetings of officers and directors with the IAF president
and monthly all-staff meetings. In addition, performance plans address individual employees’ roles
in reaching these goals and applying these strategies, and fulfillment of that role is taken into
account in annual performance appraisals.

Results

                                                21 

The results/accomplishments of IAF’s annual performance measures for FY 2009 can be found in
the APR above.

Identification of Key Factors that Could Affect Achievement
of General Goals and Objectives

The IAF works in poor, often remote, areas lacking infrastructure, vulnerable to health problems,
weather and natural disasters, fragile agriculturally, and unstable politically. International
phenomena such as markets, wars, and foreign investment also may affect planned activities. Yet
only rarely do IAF-funded projects fail as a result of such factors.

Federal Managers’ Financial Integrity Act and the Federal Financial Management
Improvement Act

In accordance with applicable guidelines, the IAF submitted its Fiscal Year 2009 Assurances
Statement relating to requirements imposed by Federal Managers’ Financial Integrity Act (FMFIA)
and the Federal Financial Management Improvement Act (FFMIA) to the USAID Office of the
Inspector General.

The IAF, in conjunction with BPD, analyzed and evaluated its systems of management control and
financial management under the FMFIA for the year ended September 30, 2009, according to the
procedures and standards prescribed by the Office of Management and Budget and the Government
Accountability Office. Based on this evaluation we found that our systems of management controls
provide reasonable assurance that: programs are free from waste, fraud and mismanagement; laws
and regulations are followed; our continuity of operations planning in critical areas is sufficient to
reduce risk to reasonable levels; and our performance information is reliable as defined in OMB
Circular A-11, Section 232.10. We further found that the IAF’s financial management systems, in
conjunction with those of BPD, meet the Federal government’s management system objectives of
usefulness, timeliness, reliability and completeness, comparability and consistency, and efficiency
and economy. As a result, we conclude that there is reasonable assurance that the Inter-American
Foundation complies with Sections 2 and 4 of the FMFIA.

We have no open or new material weakness or nonconformance to report; we have not discovered
any material weakness or nonconformance during fiscal year 2009; and we do not have any
significant deficiencies or second tier issues.

In addition, we have found that, for the year ended September 30, 2009, the Inter-American
Foundation’s administrative and fiscal accounting systems substantially comply with the
requirements of the FFMIA.




                                                 22 

                Analysis of Financial Statements and Stewardship Information

Systems, Controls, and Legal Compliance

Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during FY
2009. Program costs of $26, 036,693 reflected an increase of $1,059,430 in resources used from
the FY 2008 amount of $24,977,263.

Personnel compensation and benefits increased from $5,167,218 in fiscal 2008 to $5,268,236 in
fiscal 2009 reflecting an increase of $101,018. In fiscal 2009, program-related Contractual Services
used $4,089,181 of IAF resources. The difference of $556,614 from fiscal 2008 which reported
$4,645,795 in resources used reflects a decrease of approximately 14 percent.


                       FY09 NET COST OF IAF CORE FUNCTIONS
                                    Operating
                                    Services               Personnel
               Other Program          3%                     20%
                 Activities
                   16%
                                                                   Rent
                                                                   3%




                                   Grants
                                    58%




Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for fiscal 2009 and
2008 were $37,598,386 and $37,596,910, respectively. The difference of $1,476 is due to a net
increase in the Appropriation Fund.



                                                23 

Limitations on Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements
have been prepared from the books and records of the entity in accordance with GAAP for Federal
entities and the formats prescribed by OMB, the statements are in addition to the financial reports
used to monitor and control budgetary resources, which are prepared from the same books and
records.




                                                 24 

                 Inter-American Foundation 

                                                     An Independent Agency of the U.S. Government

                                                                            October 30, 2009

Letter from the Chief Financial Officer

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency
efficient in its operations, innovative and effective in its grassroots development
programs. The IAF learns from its experience, and uses the lessons learned to improve
its own grant making decisions and to advance the knowledge and success of
development practitioners, donors, and policy makers.

The IAF has significantly streamlined operations and lowered overhead costs by
outsourcing key administrative and technical functions through its longstanding inter-
agency franchise agreements with the U.S. Treasury Department’s Bureau of the Public
Debt (BPD) and the U.S. Interior Department’s National Business Center (NBC). BPD
provides procurement, accounting, budgeting, travel and information technology
services; NBC provides payroll and human resource services that include timekeeping
and personnel action processing and reporting as well as access to online applications
such as the Federal Personnel and Payroll System (FPPS) and Employee Express. These
arrangements produce a savings in full-time equivalencies (FTEs) and overhead costs as
well as a depth of expertise that the IAF could not otherwise afford.

Auditors from the USAID Office of the Inspector General (OIG) completed the annual
independent assessment of the security infrastructure supporting IAF’s enterprise
network system and agency compliance with the Federal Information Security
Management Act. A positive final FISMA audit report was received from the OIG
auditors in September 2009.

The IAF is supporting the Financial Management Line of Business Initiative (FMLOB)
by using BPD’s Oracle Federal Financials System and related accounting and
procurement services. In June 2007, BPD began reporting FMLOB metrics for IAF. The
Oracle platform provides real-time, user-friendly financial reports. The IAF continues to
receive unqualified audit opinions of its financial statements, internal controls over
financial reporting, and its compliance with laws and regulations.

The IAF, in conjunction with BPD, analyzed and evaluated its systems of management
control and financial management under the Federal Managers’ Financial Integrity Act
(FMFIA) for the year ended September 30, 2009, according to the procedures and
standards prescribed by the Office of Management and Budget (OMB) and the
Government Accountability Office. Based on this evaluation we found that our systems
of management controls provide reasonable assurance that: programs are free from



                                           25
waste, fraud and mismanagement; laws and regulations are followed; our continuity of
operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
our performance information is reliable as defined in OMB Circular A-11, Section
232.10. We further found that the IAF’s financial management systems, in conjunction
with those of BPD, meet the Federal government’s management system objectives of
usefulness, timeliness, reliability and completeness, comparability and consistency, and
efficiency and economy. As a result, we conclude that there is reasonable assurance that
the Inter-American Foundation complies with Sections 2 and 4 of the FMFIA.

We have no open or new material weakness or nonconformance to report; we have not
discovered any material weakness or nonconformance during fiscal year 2009; and we do
not have any open reportable conditions or second tier issues. In addition, we have found
that, for the year ended September 30, 2009, the Inter-American Foundation’s
administrative and fiscal accounting systems substantially comply with the requirements
of the Federal Financial Management Improvement Act (FFMIA).

The financial statements and performance results data are complete, reliable and in
accordance with OMB requirements and in conformity with generally accepted
accounting principles. The IAF has appropriate management controls in place to
ensure that all internal controls are operating in accordance with applicable policies and
procedures and are effective in meeting the requirements imposed by the FMFIA and
FFMIA.

Signed:

   /s/

Linda B. Kolko
Vice President for Operations and
Chief Financial Officer




                                             26
                              BROWN & COMPANY CPAs, PLLC=======:..
                  CERI'IFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS


          INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS


INTER-AMERICAN FOUNDATION
Washington, D.C.

We have audited the accompanying balance sheet of the Inter~American Foundation (lAP) as Qf
September 30, 2009, and the related statements of net cost, changes in net position, and budgetary
resources, for the year then ended (collectively referred to as the financial statements). These financial
statements are the responsibility of IAF's management. Our responsibility is to express an opinion on
these financial statements based on our audit. The financial statements of the Inter-American Foundation
as of September 30, 2008 were audited by other auditors whose report dated November 14, 2008,
expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in U.S. Government Auditing
Standards, issued by the Comptroller General of the United States; and, Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those
standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements.
An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audit
provides a reasonable basis for our opinion.

In our opinion, the fmancial statements referred to above present fairly, in all material respects, the
financial position of the IAF as of September 30, 2009 and 2008 and its net costs, changes in net position,
and budgetary resources for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with U.S. Government Auditing Standards and OMB Bulletin No. 07-04, we have also
issued a report dated November 5, 2009 on our consideration of the IAF internal control over financial
reporting and its compliance with provisions of laws and regulations. Those reports are an integral part of
an audit performed in accordance with U.S. Government Auditing Standards and should be read in
conjunction with this report in considering the results of our audit.

The information in "Management's Discussion & Analysis" is presented for the purpose of additional
analysis and is required by OMB Circular No. A-136, revised, Financial Reporting Requirements. We
have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary information. However, we
did not audit the information and, accordingly, express no opinion on it.

This report is intended solely for the information and use of the management of the IAF, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specific parties.

  ~~~
Largo, Maryland
November 5, 2009
               LARGO                                                            RICHMOND
 1101 MERCANTILE LANE, SUITE 122                                    1504 SANTA ROSA ROAD, SUITE 107
           LARGO, MD 20774                                                 RICHMOND, VA 23229
  (240) 492-1400 • FAX: (801) 778-2090
                                                    27              (804) 288-2006 • FAX: (804) 288-2238
         mail@brownco-cpas.com                                            tdavis@brownco-caps.com
                 Brown and
                 CompanyBROWNCPAs, & COMPANY CPAs, PLLC=======~.
                 PLLC
                 CERI'IFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS



                         INDEPENDENT AUDITOR'S REPORT ON
                    INTERNAL CONTROL OVER FINANCIAL REPORTING



INTER-AMERICAN FOUNDATION
Washington, D.C.

We have audited the financial statements of the Inter-American Foundation (IAF) as of and for the year
ended September 30,2009 and have issued our report thereon dated November S, 2009. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; and
the standards applicable to financial audits contained in u.s. Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements/or Federal Financial Statements.
In planning and performing our audit, we considered the IAF's internal control over financial reporting by
obtaining an understanding of the IAF's internal control, determined whether internal controls had been
placed in operation, assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 07-04. The objective of our audit was not to provide an opinion on internal control and therefore, we
do not express an opinion on internal control.


Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be significant deficiencies. Under
standards issued by the American Institute of Certified Public Accountants and OMB Bulletin No. 07-04,
a significant deficiency is a deficiency in internal control, or a combination of deficiencies, that adversely
affects the entity's ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote likelihood
that a misstatement of the entity's financial statements that is more than inconsequential will not be
prevented or detected. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that might be a material
weakness. A material weakness is a significant deficiency, or combination of significant deficiencies,
that result in a more than remote likelihood that a material misstatement of the financial statements will
not be prevented or detected. Because of inherent limitations in internal controls, misstatements, losses,
or non-compliance may nevertheless occur and not be detected. However, we noted no matters involving
the internal control and its operation that we considered to be significant deficiencies or material
weaknesses as defined above.

This report is intended solely for the information and use of the management of the IAF, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.

 ~~~
Largo, Maryland
November S, 2009



                LARGO                                                               RICHMOND
 1101 MERCANTILE LANE, SUITE 122                                      1504 SANTA ROSA ROAD, SUITE 107
           LARGO, MD 20774                           28                       RICHMOND, VA 23229
  (240) 492·1400 • FAX: (80l) 773·2090                                 (804) 288·2006 • FAX: (804) 288-2233
         mail@brownco-cp9.s.com                                              tdavis@brownco-<lllps.com
l~
 ~iI;: : ;: ; :;.!;i!=. ~~     BROWN & COMPANY CPAs,                   PLLC=======~.
                      Brown and
                     CERI'IFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS
                      Company CPAs,
                      PLLC

                             INDEPENDENT AUDITOR'S REPORT ON
                          COMPLIANCE WITH LAWS AND REGULATIONS



   INTER-AMERICAN FOUNDAnON
   Washington, D.C.

   We have audited the financial statements of the Inter-American Foundation (lAF) as of and for the year
   ended September 30,2009, and hllve issued our report thereon dated November 5, 2009. We conducted
   our audit in accordance with auditing standards generally accepted in the United States of America, and
   the standards applicable to financial audits contained inu.s.Government Auditing Standards, issued by
   the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
   07-04, Audit Requirements/or Federal Financial Statements.

   The management of the IAF is responsible for complying with laws and regulations applicable to the IAF.
   As part of obtaining reasonable assurance about whether the IAF's financial statements are free of
   material misstatement, we performed tests of its compliance with certain provisions of laws and
   regulations, noncompliance with which could have a direct and material effect on the determination of
   financial statement amounts, and certain other laws and regulations specified in OMB Bulletin No. 07-04.
   We limited our tests of compliance to these provisions and we did not test compliance with all Jaws and
   regulations applicable to the IAF.

   The results of our tests of compliance disclosed no reportable instances of noncompliance with other laws
   and regulations discussed in the preceding paragraph that are required to be reported under U.S.
   Government Auditing Standards or OMB Bulletin No. 07-04.

   Providing an opinion on compliance with certain provisions of laws and regulations was not an objective
   of our audit, and, accordingly, we do not express such an opinion. However, we noted no noncompliance
   with laws and regulations, which could have a direct and material effect on the determination of financial
   statement amounts.

   This report is intended solely for the information and use of the management of the IAF, OMB and
   Congress, and is not intended to be and should not be used by anyone other than these specified parties.


    ~~~
   Largo, Maryland
   November 5, 2009




                 LARGO                                                              RICHMOND
   1101 MERCANTILE LANE, SUITE 122                                    1504 SANTA ROSA ROAD, SUITE 107
             LARGO. MD 20774
    (240) 492-1400 • FAX: (301) 773-2090
                                                     29                       RICHMOND, VA 28229
                                                                       (804) 288-2006 • FAX: (804) 288-2233
           mail@brownco-cpas.com                                             tdavia@brownC4rCaps.com
                                        INTER-AMERICAN FOUNDATION
                                                BALANCE SHEET
                                        As Of September 30, 2009 and 2008
                                                    (In Dollars)

                                                                            2009               2008
Assets:
  Intragovernmental:
     Fund Balance With Treasury (Note 2)                                $   37,598,386     $   37,596,910
     Advances and Prepayments (Note 4)                                          48,378             14,159
  Total Intragovernmental                                                   37,646,764         37,611,069

  Accounts Receivable (Note 3)                                                         
                                                                                   115                178
  General Property, Plant and Equipment, Net (Note 5)                                 -                  -
  Advances and Prepayments (Note 4)                                          1,423,604                   -
Total Assets                                                            $   39,070,483     $   37,611,247


Liabilities:
  Intragovernmental:
     Accounts Payable (Note 6)                                          $       75,535     $      224,340
     Other (Note 6)                                                             51,789             42,461
  Total Intragovernmental                                                      127,324            266,801

  Accounts Payable (Note 6)                                                    511,029            743,948
  Other (Note 6)                                                               570,824            479,302
Total Liabilities                                                       $    1,209,177     $    1,490,051

Net Position:
  Unexpended Appropriations - Other Funds                               $   22,609,925     $   19,507,588
  Cumulative Results of Operations - Earmarked Funds (Note 15)              15,630,157         16,937,111
  Cumulative Results of Operations - Other Funds                              (378,776)          (323,503)
  Total Net Position                                                    $   37,861,306     $   36,121,196
Total Liabilities and Net Position                                      $   39,070,483     $   37,611,247




The accompanying notes are an integral part of these statements.

                                                          30
                                      INTER-AMERICAN FOUNDATION
                                        STATEMENT OF NET COST
                              For The Years Ended September 30, 2009 and 2008
                                                  (In Dollars)

                                                                                2009              2008
Program Costs:
  Foreign Grant Program: 
    Gross Costs (Note 9)                                               $        26,036,693    $   24,977,263
    Net Program Costs                                                  $        26,036,693    $   24,977,263

Net Cost of Operations                                                 $        26,036,693    $   24,977,263




The accompanying notes are an integral part of these statements.

                                                        31
                                                                                    INTER-AMERICAN FOUNDATION
                                                                            STATEMENT OF CHANGES IN NET POSITION
                                                                            For The Years Ended September 30, 2009 and 2008
                                                                                                (In Dollars)

                                                                  2009                      2009                  2009                2008                   2008                         2008
                                                             Earmarked Funds          All Other Funds      Consolidated Total    Earmarked Funds       All Other Funds             Consolidated Total

Cumulative Results of Operations:                     
Beginning Balances                                           $     16,937,111
                                                                                      $        (323,503)   $       16,613,608    $     16,328,662      $          (311,758)
                                                                                                                                                                                   $       16,016,904

Budgetary Financing Sources:              
  Appropriations Used                                                        -              18,857,905             18,857,905                    -           18,450,523
                                                                                                                                                                                           18,450,523
  Donations and Forfeitures of Cash                                          -                        -                      -              2,250                      -                        2,250
  Other                                                             5,482,190
                                                                                                      -             5,482,190           6,803,003                      -                    6,803,003

Other Financing Sources (Non-Exchange):                   
  Imputed Financing Sources                                                       -            334,371                334,371                      -                  318,191
                                                                                                                                                                                              318,191

Total Financing Sources                                             5,482,190
                                                                                            19,192,276             24,674,466           6,805,253            18,768,714
                                                                                                                                                                                           25,573,967
                  
Cost of Operations                                                  6,789,144
                                                                                            19,247,549             26,036,693           6,196,804            18,780,459
                                                                                                                                                                                           24,977,263
Net Change                                                         (1,306,954)                  (55,273)           (1,362,227)            608,449                (11,745)                     596,704
                                                                                                                                                                       
Cumulative Results of Operations                             $     15,630,157
                                                                                      $        (378,776)   $       15,251,381    $     16,937,111      $          (323,503)
                                                                                                                                                                                   $       16,613,608

Unexpended Appropriations:                
Beginning Balances                                           $                    -   $     19,507,588     $       19,507,588    $                 -   $     17,128,211
                                                                                                                                                                                   $       17,128,211

Budgetary Financing Sources:              
  Appropriations Received                                                         -          22,500,000            22,500,000                      -         21,000,000
                                                                                                                                                                                           21,000,000
  Other Adjustments                                                               -            (539,758)             (539,758)                     -           (170,100)
                                                                                                                                                                                             (170,100)
  Appropriations Used                                                             -         (18,857,905)          (18,857,905)                     -        (18,450,523)                  (18,450,523)

Total Budgetary Financing Sources                                                 -           3,102,337             3,102,337                      -          2,379,377
                                                                                                                                                                                            2,379,377


Total Unexpended Appropriations                              $                    -   $     22,609,925     $       22,609,925    $                 -   $     19,507,588
                                                                                                                                                                                   $       19,507,588

Net Position                                                 $     15,630,157
                                                                                      $     22,231,149     $       37,861,306    $     16,937,111      $     19,184,085 
                                                                                                                                                                                   $       36,121,196




The accompanying notes are an integral part of these statements.

                                                                                                    32
                                          INTER-AMERICAN FOUNDATION
                                   STATEMENT OF BUDGETARY RESOURCES
                                  For The Years Ended September 30, 2009 and 2008
                                                      (In Dollars)

                                                                                    2009              2008
Budgetary Resources:
Unobligated Balance: 
Unobligated Balance Brought Forward, October 1                             $         8,071,367    $    7,588,848
Recoveries of Prior Year Unpaid Obligations                                          1,695,727         1,998,327
Budget Authority
  Appropriation                                                                     22,500,000        21,000,000
  Spending Authority From Offsetting Collections
       Collected                                                                     5,482,190         6,805,253
  Subtotal                                                                          27,982,190        27,805,253
Permanently Not Available                                                              539,758           170,100
Total Budgetary Resources                                                  $        37,209,526    $   37,222,328

Status of Budgetary Resources:
Obligations Incurred 
  Direct                                                                   $        29,602,267    $   29,150,961
Unobligated Balance
  Apportioned                                                                          657,529           131,805
Unobligated Balance Not Available                                                    6,949,730         7,939,562
Total Status of Budgetary Resources                                        $        37,209,526    $   37,222,328

Change in Obligated Balance: 
Obligated Balance, Net
  Unpaid Obligations, Brought Forward, October 1                           $        29,525,543    $   27,025,842
Obligations Incurred Net                                                            29,602,267        29,150,961
Less: Gross Outlays                                                                 27,440,956        24,652,933
Less: Recoveries of Prior Year Unpaid 
  Obligations, Actual                                                                1,695,727         1,998,327
Obligated Balance, Net, End of Period
  Unpaid obligations                                                                29,991,127        29,525,543
Total, Unpaid Obligated Balance, Net, End of Period                        $        29,991,127    $   29,525,543

Net Outlays:
Net Outlays:
  Gross Outlays                                                            $        27,440,956    $   24,652,933
  Less: Offsetting Collections                                                       5,482,190         6,805,253
  Net Outlays                                                              $        21,958,766    $   17,847,680




The accompanying notes are an integral part of these statements.

                                                          33
               INTER-AMERICAN FOUNDATION 

           NOTES TO THE FINANCIAL STATEMENTS 

      FOR THE YEARS ENDED SEPTEMBER 30, 2009 AND 2008 

NOTE 1. SUMMARY OF SIGNIFICANT                      Requirements, and IAF accounting policies
ACCOUNTING POLICIES                                 which are summarized in this note. These
                                                    statements, with the exception of the Statement
A. Reporting Entity                                 of Budgetary Resources, are different from
                                                    financial management reports, which are also
The Inter-American Foundation, a U.S.               prepared pursuant to OMB directives that are
government corporation, was established             used to monitor and control the IAF’s use of
pursuant to part IV of the Foreign Assistance       budgetary resources.
Act of 1969 (22 U.S.C. 290f (a)). The IAF
provides grants to support the initiatives of       The statements consist of the Balance Sheet,
non-governmental     and    community-based         Statement of Net Cost, Statement of Changes
organizations in Latin America and the              in Net Position, and the Statement of
Caribbean to implement their economic               Budgetary Resources. In accordance with
development and poverty reduction projects.         OMB Circular A-136, the financial statements
                                                    and associated notes are presented on a
The management of the IAF is vested in a            comparative basis. Unless specified otherwise,
nine-person Board of Directors appointed by         all amounts are presented in dollars.
the President of the United States. Six Board
members are drawn from the private sector and       C. Budgets and Budgetary Accounting
three from officers or employees of agencies of
the U.S. Government concerned with Inter-
                                                    Congress enacts appropriations to permit the
American activities. The Board appoints the
                                                    IAF to incur obligations for authorized
IAF’s president who acts as the chief executive
                                                    purposes. In fiscal years 2009 and 2008, the
officer.
                                                    IAF was accountable for the Social Progress
                                                    Trust Fund (SPTF), Gift Fund, and General
B. Basis of Presentation
                                                    Fund appropriations. The IAF recognizes
                                                    budgetary resources as assets when cash (funds
The financial statements have been prepared to
                                                    held by the U.S. Treasury) is made available
report the financial position, net cost of
                                                    through the Department of Treasury General
operations, changes in net position, and the
                                                    Fund warrants and transfers from the Inter-
status and availability of budgetary resources
                                                    American Development Bank (IDB).
of the IAF. The statements are a requirement
of the Chief Financial Officers Act of 1990,
the Government Management Reform Act of             D. Basis of Accounting
1994, and the Accountability of Tax Dollars
Act of 2002. They have been prepared from,          Transactions are recorded on both an accrual
and are fully supported by, the books and           accounting basis and a budgetary basis. Under
records of the IAF in accordance with the           the accrual method, revenues are recognized
hierarchy of accounting principles generally        when earned, and expenses are recognized
accepted in the United States of America,           when a liability is incurred, without regard to
standards approved by the principals of the         receipt or payment of cash.          Budgetary
Federal Accounting Standards Advisory Board         accounting facilitates compliance with legal
(FASAB), Office of Management and Budget            requirements on the use of federal funds.
(OMB) Circular A-136, Financial Reporting

                                                  34 

E. Revenues & Other Financing Sources                availability and exchange controls. In 2002,
                                                     the SPTF agreement was amended to make
The IAF’s grant program is funded by                 available all remaining funds until exhausted.
appropriation from the budget of the United
States, agreement with the Inter-American            The IAF recognizes as an imputed financing
Development Bank covering the SPTF, and              source the amount of accrued pension and
donations from the private sector. No-year           post-retirement benefit expenses for current
appropriations     remain    available     until     employees paid on its behalf by the Office of
expended, while multi-year appropriations are        Personnel Management (OPM).
available for the period prescribed by the
applicable statute. Appropriations are used,         F. Taxes
within statutory limits, for programmatic,
operating and capital expenditures for essential     IAF, as a Federal entity, is not subject to
personal property.        Appropriations are         Federal, State, or local income taxes, and,
recognized as a financing source when                accordingly, no provision for income taxes has
expended.      Appropriations expended for           been recorded in the accompanying financial
capitalized property and equipment are               statements.
recognized as expense when an asset is
consumed in operations.                              G. Fund Balance with Treasury

The IAF has an agreement with the IDB to             The U.S. Treasury processes cash receipts and
receive funds from the SPTF to finance part of       disbursements. Funds with the Department of
the IAF’s grant program. The IDB is an               the Treasury primarily represent appropriated
international financial organization established     funds and SPTF collections that are available
to promote the economic and social                   to pay current liabilities and finance authorized
development of member countries. The United          purchase commitments and SPTF grants. The
States’ participation in IDB is authorized and       IAF does not maintain cash in commercial
governed by the Inter-American Development           bank accounts or foreign currency balances.
Bank Act (22 U.S.C. 283). Within IDB, the            Foreign currency payments are made either by
United States established the SPTF in 1961           Treasury or the Department of the State and
and provided appropriations to SPTF through          are reported by the IAF in U.S. dollar
1964. IDB was designated as the administrator        equivalents.     See Note 2 for additional
for the SPTF and committed the original SPTF         information.
appropriations to loans. Repayments of these
loans are recycled by the IDB in accordance          H. Accounts Receivable
with the original agreement and subsequent
provision for additional loans, technical            Accounts receivable consists of amounts owed
cooperation programs, and financing of the           to the IAF by other Federal agencies and the
Inter-American Foundation program. Congress          public. Amounts due from Federal agencies
enacts annual, multi-year, and no-year               are considered fully collectible. Accounts
appropriations to be used, within statutory          receivable    from    the     public     include
limits, for operating, capital and grant             reimbursements from employees.               An
expenditures. Additional amounts are obtained        allowance     for    uncollectible     accounts
from service fees and reimbursements from            receivable from the public is established when,
other government entities and the public.            based upon a review of outstanding accounts
                                                     and the failure of all collection efforts,
Pursuant to a 1973 amendment to the Foreign          management determines that collection is
Assistance Act of 1961, IDB provides funds to        unlikely to occur considering the debtor’s
finance social development projects. These           ability to pay. See Note 3 for additional
funds are made available in U.S. dollars upon        information.
request by the IAF, subject to denomination

                                                   35 

I. Property, Equipment, and Software                 sovereign capacity, can abrogate liabilities.
                                                     Liabilities not covered by budgetary resources
Property, equipment and software represent           on the Balance Sheet are equivalent to amounts
furniture, fixtures, equipment, and information      reported as components requiring or generating
technology hardware and software which are           resources on the Reconciliation of Net Cost to
recorded at original acquisition cost and are        Budget.
depreciated or amortized using the straight-line
method over their estimated useful lives.            L. Accounts Payable
Major alterations and renovations are
capitalized, while maintenance and repair costs      Accounts payable consists primarily of
are charged to expense as incurred. IAF's            amounts owed to other Federal agencies and
capitalization threshold is $50,000 for              the public for contracts for goods or services,
individual purchases and $500,000 for bulk           such as leases, utilities, telecommunications
purchases. Applicable standard governmental          and consulting and support services.
guidelines regulate the disposal and
convertibility of agency property, equipment         M. Annual, Sick, and Other Leave
and software. The useful life classifications
for capitalized assets are as follows:               Annual leave is accrued as it is earned, and the
                                                     accrual is reduced as leave is taken. The
Description                 Useful Life (years)      balance in the accrued leave account is
Office Furniture                     10              adjusted to reflect current pay rates. Liabilities
                                                     associated with other types of vested leave,
ADP Equipment                         3              including compensatory, restored leave, and
Office Equipment                     10              sick leave in certain circumstances, are accrued
IT Software                           3              at year-end, based on latest pay rates and
                                                     unused hours of leave. Nonvested leave is
J. Advances and Prepaid Charges                      expensed when used. Any liability for sick
                                                     leave that is accrued but not taken by a Civil
Advance payments are generally prohibited by         Service Retirement System (CSRS)-covered
law. There are some exceptions, such as              employee is transferred to the Office of
reimbursable agreements, subscriptions and           Personnel Management upon the retirement of
payments to contractors and employees.               that individual. No credit is given for sick
Payments made in advance of the receipt of           leave balances upon the retirement of Federal
goods and services are normally recorded as          Employee’s Retirement System (FERS)-
advances or prepaid charges at the time of           covered employees.
prepayment and recognized as expenses when
the related goods and services are received.         N. Retirement Plans

K. Liabilities                                       The IAF’s employees participate in the
                                                     (CSRS) or the (FERS). FERS was established
Liabilities represent the amount of monies or        by the enactment of Public Law 99-335.
other resources likely to be paid by the IAF as      Pursuant to this law, FERS and Social Security
a result of transactions or events that have         automatically cover most employees hired
already occurred. No liability can be paid,          after December 31, 1983. Employees hired
however, absent an appropriation or SPTF             before January 1, 1984 elected to join either
funding. Liabilities for which an appropriation      FERS and Social Security or remain in CSRS.
has not been enacted or other funds received         The IAF recognizes the imputed cost of
are, therefore, classified as not covered by         pension and other retirement benefits during
budgetary resources. There is no certainty that      the employees’ active years of service. OPM
the     appropriation    will    be    enacted.      actuaries determine pension cost factors by
Additionally, the Government, acting in its          calculating the value of pension benefits

                                                   36 

expected to be paid in the future and                   the IAF’s audit guidelines.      The IAF’s
communicates these factors to the IAF for               administrative expenses are funded solely by
current period expense reporting. OPM also              appropriated funds.
provides information regarding the full cost of
health and life insurance benefits. The IAF             For two years prior to FY09, IAF did not
recognized the offsetting revenue as imputed            estimate grant advances. In FY09, IAF began
financing sources to the extent these expenses          estimating grant advances by multiplying the
will be paid by OPM.                                    grants disbursed during the quarter by 50%.
                                                        This estimate will be done each quarter to
All employees are eligible to contribute to the         determine the amount of grant disbursements
Thrift Savings Plan (TSP). For those                    to be accounted for as grant advances in the
employees participating in the FERS, a TSP              Balance Sheet. See Note 4 for additional
account is automatically established and the            information.
IAF makes a mandatory 1 percent contribution
to this account. In addition, the IAF makes             P. Use of Estimates
matching contributions, ranging from 1 to 4
percent, for FERS eligible employees who
                                                        Management has made certain estimates when
contribute to their TSP accounts. In accordance
                                                        reporting assets, liabilities, revenue, and
with Federal employee benefit policies,
                                                        expenses, and in the note disclosures. The
matching contributions are not made to the
                                                        preparation of financial statements in
TSP accounts established by CSRS employees.
                                                        conformity with generally accepted accounting
                                                        principles requires management to make
FERS employees and certain CSRS
                                                        assumptions that affect the reported amounts
reinstatement employees are eligible to
                                                        of assets and liabilities and disclosure of
participate in the Social Security program after
                                                        contingent assets and liabilities at the date of
retirement. In these instances, the IAF remits
                                                        the financial statements and the reported
the employer’s share of the required
                                                        amounts of revenues and expenses during the
contribution. The IAF's contribution to the
                                                        reporting period. Actual results could differ
employee pension plan was $508,862 for fiscal
                                                        from those estimates.
year 2009 and $494,309 for fiscal year 2008.
In addition, the IAF costs for health and life
insurance were $424,835 for fiscal year 2009            Q. Imputed Costs/Financing Sources
and $414,969 for fiscal year 2008.
                                                        Federal Government entities often receive
The IAF does not report on its financial                goods and services from other Federal
statements information pertaining to the                Government entities without reimbursing the
retirement plans covering its employees.                providing entity for all the related costs. In
Reporting amounts such as plan assets,                  addition, Federal Government entities also
accumulated plan benefits, and related                  incur costs that are paid in total or in part by
unfunded liabilities, if any, is the responsibility     other entities. An imputed financing source is
of the OPM.                                             recognized by the receiving entity for costs
                                                        that are paid by other entities. The IAF
O. Grant Disbursements and                              recognized imputed costs and financing
Administrative Expenses                                 sources in fiscal years 2009 and 2008 to the
                                                        extent directed by OMB.
Grant disbursements include payments in
advance of performance under contractual                R. Non-Entity Assets and Liabilities
obligations.    Evidence of performance is
determined by review of periodic expenditure            The IAF did not hold any Non-Entity assets or
reports. All of the IAF expenditures for grants         liabilities as of September 30, 2009 and 2008.
over $35,000 are independently verified using

                                                      37 

S. Expired Accounts and Cancelled                   fiscal years, the expired account is available
Authority                                           for expenditure to liquidate valid obligations
                                                    incurred during the unexpired period.
Unless otherwise specified by law, annual           Adjustments are allowed to increase or
authority expires for incurring new obligations     decrease valid obligations incurred during the
at the beginning of the subsequent fiscal year.     unexpired period but not previously reported.
The account in which the annual authority is        At the end of the fifth expired year, the expired
placed is called the expired account. For five      account is cancelled.

NOTE 2. FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2009 and 2008 were as
follows:
Fund Balances:
                                                          2009              2008
 Appropriated Funds                                    $ 22,659,429      $ 20,659,799
 Gift Fund                                                        -                 -
 Social Progress Trust Fund (SPTF)                       14,938,957        16,937,111
 Total                                                 $ 37,598,386      $ 37,596,910

Status of Fund Balance with Treasury:
                                                                    2009                  2008
 Unobligated Balance includes SPTF
    Available                                                  $    657,529           $    131,805
    Unavailable                                                   6,949,730              7,939,562
 Obligated Balance Not Yet Disbursed                             29,991,127             29,525,543
 Total                                                         $ 37,598,386           $ 37,596,910

NOTE 3. ACCOUNTS RECEIVABLE

Accounts receivable balances as of September 30, 2009 and 2008 were as follows:
                                                               2009               2008
  With the Public
    Accounts Receivable                                    $         115        $      178
   Total Accounts Receivable                                    $          115        $          178

The accounts receivable is primarily made up of employee receivables. Historical experience has
indicated that most of the receivables are collectible. There are no material uncollectible
accounts as of September 30, 2009 and 2008.




                                                  38 

NOTE 4. ADVANCES AND PREPAYMENTS

Advance and Prepayment account balances as of September 30, 2009 and 2008 were as follows:
                                                             2009               2008
Intragovernmental
   Advances and Prepayments                              $     48,378       $      14,159
With the Public
   Grant Advances                                               1,423,604                     -
Total Advances and Prepayments                             $ 1,471,982        $       14,159


Intragovernmental advances and prepayments represent advance payments to other Federal
Government entities for agency expenses not yet incurred, or for goods or services not yet
received.

NOTE 5. PROPERTY, EQUIPMENT, AND SOFTWARE

Property, equipment, and software account balances as of September 30, 2009 and 2008 were as
follows:
Schedule of Property, Equipment, and Software as of September 30, 2009
                                                           Accumulated
                                        Acquisition        Amortization/           Net Book
 Major Class                               Cost            Depreciation             Value
ADP Equipment                          $     22,502         $     22,502      $                   -
Office Furniture                             36,894               36,894                          -
 Total                                 $      59,396        $        59,396   $                   -


Schedule of Property, Equipment, and Software as of September 30, 2008
                                                           Accumulated
                                        Acquisition        Amortization/           Net Book
 Major Class                               Cost            Depreciation             Value
ADP Equipment                          $     27,000        $      27,000       $                  -
Office Furniture                             37,987              37,987                           -
Total                                  $      64,987        $        64,987    $                  -




                                             39 

NOTE 6. LIABILITIES

The accrued liabilities for the IAF are comprised of program expense accruals, payroll accruals,
and unfunded annual leave earned by employees. Program expense accruals represent expenses
that were incurred prior to year-end but were not paid. Similarly, payroll accruals represent
payroll expenses that were incurred prior to year-end but were not paid.

                                                        2009                      2008
Intragovernmental:
 Accounts Payable                                 $             75,535      $          224,340
 Payroll Taxes Payable                                          51,789                  42,461
Total Intragovernmental                                        127,324                 266,801
Program Expenses:
 Rent                                                           72,604                        -
 Staff Travel, Training, Printing, Supplies                     64,386                   52,279
 Postage and Freight                                                 -                     330
 Maintenance of Equipment                                        6,910                   16,185
 Communications and Mail Services                                6,069                    5,017
 Supplies & non-capitalized equipment                            4,071                     329
 Local Advisory service contracts - grantees                   157,752                 392,862
 Grant Audits                                                   31,789                 165,460
 Misc. Services Program                                         32,215                    8,672
 Misc. Services, Program Support                               135,233                 102,814
Total Program Expenses                                         511,029                 743,948
 Payroll Accrual                                               191,932                 155,620
Total Liabilities Covered by Budgetary                         830,285               1,166,369
Resources
Liabilities not Covered by Budgetary
Resources:
 Unfunded Leave                                                378,892                 323,682
Total Liabilities                                 $        1,209,177        $        1,490,051


NOTE 7. COMMITMENTS AND CONTINGENCIES

In the course of its grant-making activities, the IAF has unliquidated grant obligations which, in
the absence of violations or cancellations of the grant agreements, will require disbursements.
Unliquidated grant obligations at September 30, 2009 and 2008 total approximately $25,625,631
and $25,966,032, respectively. As of September 30, 2009 and 2008, there were no obligations
due to canceled appropriations for which there is a contractual commitment for payment.




                                               40 

NOTE 8. UNDELIVERED ORDERS AT THE END OF THE PERIOD

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states that
the amount of budgetary resources obligated for undelivered orders at the end of the period
should be disclosed. For the periods ended September 30, 2009 and 2008, undelivered orders
amounted to $30,632,823 and $28,359,173, respectively.

NOTE 9. PROGRAM COSTS

Costs by major budget object classification as of September 30, 2009 and 2008 are as follows:
                                                        2009                      2008
Budget Object Classifications:
 Personnel Compensation                            $       3,930,532       $        3,874,565
 Personnel Benefits - Other                                  404,008                   383,374
 Pension - CSRS                                                144,758                    138,095
 Pension - FERS                                                364,104                    356,214
 Health Insurance                                              418,224                    408,432
 Life Insurance                                                  6,610                      6,538
 Travel and Transportation of Persons                          491,098                    563,478
 Transportation of Things                                       15,341                      9,766
 Rents, Communication, Utilities and Misc.                     770,298                    709,283
 Printing and Reproduction                                     177,919                    251,131
 Other Services                                              4,089,181                  4,645,795
 Supplies and Materials                                         44,797                    149,054
 Equipment                                                      20,036                     16,607
 Grants, Subsidies, and Contributions                       15,159,787                13,464,931
Total Program Costs                                $        26,036,693        $       24,977,263


NOTE 10. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities on the IAF’s Balance Sheet as of September 30, 2009 and 2008 include liabilities
not covered by budgetary resources, which are liabilities for which congressional action is needed
before budgetary resources can be provided. Although future appropriations to fund these
liabilities are likely and anticipated, it is not certain that appropriations will be enacted to fund
these liabilities. Unfunded FECA liability is an intragovernmental liability not covered by
budgetary resources. Other liabilities not covered by budgetary resources consist of unfunded
leave. Unfunded leave balances are $378,892 and $323,682 as of September 30, 2009 and 2008,
respectively.




                                                 41 

NOTE 11. IMPUTED FINANCING SOURCES

The IAF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such benefits
are the responsibility of the administering agency, the OPM. For the fiscal years ended
September 30, 2009 and 2008, imputed financing was $334,371 and $318,191, respectively.

NOTE 12. FINANCING SOURCES - SPTF

The Reconciliation of Net Cost of Operations to Budget Note reconciles the financial Net Cost of
Operations with the Statement of Budgetary Resources. The IAF reports SPTF funds obtained
from the IDB as offsetting collections earned. The IAF had no exchange revenue in fiscal year
2009 or 2008. For fiscal year 2009 and 2008, the IAF received $5,482,190 and $6,803,003
respectively, from the IDB, which was reported on its SF-133 as funds received from SPTF
collections.

                                                        2009                      2008
 SPTF Cumulative Results:
  SPTF Beginning Balance                          $       16,937,111       $       16,294,968
  SPTF Funds Received                                      5,482,190                 6,803,003
  Less: SPTF Funds Expended                                6,789,144                 6,160,860
 SPTF Fund Carry Forward                                  15,630,157               16,937,111
 Donations Cumulative Results:
  Donations Beginning Balance                                        -                   33,694
  Donations Received                                                 -                    2,250
  Less: Donations Expended                                           -                   35,944
 Donations Carry Forward                                             -                        -


 Total SPTF and Donations                                 15,630,157               16,937,111
  Less: Cumulative Results of Operations –
                                                               378,776                323,503
 All Other Funds
 Total Cumulative Results of Operations           $       15,251,381       $       16,613,608

NOTE 13. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President's Budget that will include FY09 actual budgetary execution information has not yet
been published. The President’s Budget is scheduled for publication in February 2010 and can be
found at the OMB Web site. http://www.whitehouse.gov/omb The 2010 Budget of the United
States Government, with the actual column completed for 2008 has been reconciled to the
Statement of Budgetary Resources and there were no material differences.




                                              42 

NOTE 14. OPERATING LEASE

The IAF occupies office space under a lease agreement, which is accounted for as an operating
lease. The IAF entered into a lease agreement that will expire on April 30, 2012. Lease
payments are increased annually based on the IAF’s proportionate share of the building’s
operating expenses and real estate taxes. The new agreement allows the IAF an abatement credit
in lieu of a build-out allowance that will be deducted from the monthly rent for the first 26
months of the lease. Total net rental expense for fiscal years 2009 and 2008 were $715,096 and
$664,308 respectively. Following is a schedule of future payments for the term of the lease.


 Fiscal Year                                                                    Office Space
 2010                                                                           $     720,898
 2011                                                                                  736,770
 2012                                                                                  440,095
 Total Future Payments                                                          $    1,897,763


NOTE 15. EARMARKED FUNDS

Schedule of Earmarked Funds as of September 30, 2009 and 2008 are as follows:
                                                      2009                      2008
 Balance Sheet as of September 30
 Assets:
  Fund Balance with Treasury                     $      14,938,956        $         16,937,111
  Other Assets                                              691,201                          -
 Total Assets                                            15,630,157                 16,937,111
 Liabilities: None
 Net Position:
  Cumulative Results of Operations –
                                                         15,630,157                 16,937,111
 Earmarked Funds
 Total Net Position                                      15,630,157                 16,937,111
 Total Liabilities and Net Position                      15,630,157                 16,937,111
 Statement of Net Cost for the Period
 Ended September 30
 Program Costs:
  Gross Costs                                             6,789,144                  6,196,804
  Less: Total Non-Exchange Revenue                        5,482,190                  6,805,253
 Net Cost of Operations                                   1,306,954                  (608,449)
 Statement of Changes in Net Position For
 the Period Ended September 30
 Net Position Beginning of Period                        16,937,111                 16,328,662
 Net Cost of Operations                                   1,306,954                  (608,449)
 Net Position End of Period                         $    15,630,157       $         16,937,111

                                             43 

NOTE 16. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET 


                                                                        2009            2008
Resources Used to Finance Activities:
Budgetary Resources Obligated
      Obligations Incurred                                           $29,602,267     $29,150,961
      Less: Spending Authority from Offsetting Collections and
      Recoveries                                                       7,177,917        8,803,580
      Obligations Net of Offsetting Collections and Recoveries        22,424,350       20,347,381
Other Resources
      Donations and Forfeitures of Property                                    -           2,250
      Imputed Financing from Costs Absorbed by Others                    334,371         318,191
      Net Other Resources Used to Finance Activities                     334,371         320,441

Total Resources Used to Finance Activities                            22,758,721       20,667,822

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE
NET COST OF OPERATIONS
Change in Budgetary Resources Obligated for Goods, Services and
       Benefits Ordered But Not Yet Provided                     2,259,489              2,505,308
Resources That Fund Expenses Recognized in Prior Periods               (62)                  (717)
Other                                                           (5,482,190)            (6,803,003)
Total Resources Used to Finance Items Not Part of the Net Cost
of Operations                                                   (3,222,763)            (4,298,412)

Total Resources Used to Finance the Net Cost of Operations            25,981,484       24,966,234

COMPONENTS OF THE NET COST OF OPERATIONS THAT
WILL NOT REQUIRE OR GENERATE RESOURCES IN THE
CURRENT PERIOD
Components Requiring or Generating Resources in Future Periods
     Increase in Annual Leave Liability                        55,209                      10,846
     Total Components of Net Cost of Operations That will
     Require or Generate Resources in Future Periods           55,209                      10,846

Components Not Requiring or Generating Resources
       Depreciation and Amortization                                            -             183
       Total Components of Net Cost of Operations That will not
       Require or Generate Resources                                            -             183
Total Components of Net Cost of Operations That will not Require
       Generate Resources in the Current Period                           55,209          11,029
NET COST OF OPERATIONS                                               $26,036,693     $24,977,263

IAF has reconciled its budgetary obligations and non-budgetary resources available to its net cost
of operations.

                                                44 

